No.

Supreme Court, U.S.

In tfje Supreme Court of tfje Mntteb

2 5 -'3

WENDY ALISON NORA,
Petitioner,
v.

MINNESOTA OFFICE OF LAWYERS
PROFESSIONAL RESPONSIBILITY
Respondent.
On Petition for a Writ of Certiorari to
the Supreme Court of Minnesota
PETITION FOR A WRIT OF CERTIORARI
Wendy Alison Nora*
Petitioner, in propria persona
ACCESS LEGAL SERVICES, LLC**
310 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 333-4144
FAX: (612) 206-3170
Email: accesslegalservices@gmail.com
* Not admitted to practice law in Minnesota or
Wisconsin
**Providing research, investigative, technical,
document and filing services upon the request
of and at the direction of qualified attorneys in
all U.S. states, except the State of Wisconsin

aS#5-

received^
DEC - 2 2019

1

QUESTIONS FOR REVIEW
Whether Petitioner was denied her Rights to Due
Process guaranteed by the Fourteenth Amendment
to the Constitution of the United States when the
Minnesota Supreme Court imposed reciprocal
discipline under Rule 12(d) of the Minnesota Rules
of Lawyers Professional Responsibility (MRLPR) by
ignoring prosecutorial misconduct in the
disciplinary proceedings before the Wisconsin
Supreme Court.

11

PARTIES TO THE PROCEEDING
Wendy Alison Nora, Petitioner on review,
is a member of the bar of this Court. Petitioner
was admitted to practice before the Supreme
Courts of Wisconsin on June 9, 1975 and before the
Supreme Court of Minnesota on September 20,
1985. Petitioner was suspended from practice
before the Wisconsin Supreme Court by a Suspen­
sion Order entered on March 30, 2018 and was
suspended from practice before the Minnesota
Supreme Court as reciprocal discipline to the
Wisconsin Suspension Order on May 22, 2019.
Rehearing was denied on June 28, 2019.
The Minnesota Office of Lawyers
Professional Responsibility is the Respondent
herein. The names and contact information for the
lawyers representing the Minnesota Office of
Lawyers Professional Responsibility is set forth
below:
Susan M. Humiston, Director
Susan. Humiston@courts. state, mn.us
Nicole S. Franks, Assistant Director
Nicole.Frank@courts.state.mn.us
OFFICE OF LAWYERS
PROFESSIONAL RESPONSIBILITY
1500 Landmark Towers
345 St. Peter Street
St. Paul, Minnesota 55102-1218
(651) 296-3952

Ill

TABLE OF CONTENTS
Question Presented

1

Parties to the Appeal

11

Table of Authorities

v

Opinions Below

1

Jurisdiction

1

Constitutional Amendment and Rules of Court
Involved.........................................................

2

Statement of the Case

6

A. Introduction

6

B. Factual background

9

C. Procedural background

13

D. Legal authority

14

Reasons for Granting the Petition
A. The questions presented have not
previously been decided by this Court

16

16

IV

B. The question clearly presented here is a
matter of substantial importance................ 18
C. The issues of violation of Petitioner’s Due
Process Rights were consistently raised and
preserved
19
D. Petitioner’s Due Process Rights were
violated by the imposition of reciprocal
discipline based in proceedings in violation of
her Due Process Rights
19
Conclusion

20

APPENDICES
APPENDIX A-Opinion and Order of the Minnesota
Supreme Court (May 22, 2019)
la
APPENDIX B-Order Denying Rehearing of the
Minnesota Supreme Court (June 28, 2019)........ 20a
APPENDIX C—Respondent’s Attachment to
Petition for Reciprocal Discipline (March 30, 2018
Opinion and Order of the Wisconsin Supreme
Court)
21a
APPENDIX D-Petitioner’s Memorandum in
Opposition to Petition for Reciprocal Discipline
(December 7, 2018)................................................. . 52a

V

TABLE OF AUTHORITIES
United States Constitution
Fourteenth Amendment
Due Process Rights

2, 7, 14, 16
Passim

United States Supreme Court Cases
Brady v. State of Maryland, 373 U.S. 83,
83 S.Ct. 1194, 10 L.Ed.2d 215 (1963)

15

Forrester v. White, 484 U.S. 219,.......
108 S.Ct. 538, 98 L.Ed.2d 555 (1988)

11

In the Matter of John Ruffalo, Jr.,....
Petitioner, 390 U.S. 544, 550,
88 S.Ct. 1222, 20 L.Ed.2d 117 (1968)

6, 14, 18

McDonough v. Smith, No. No. 18-485,
decided June 20, 2019

6, 8, 18

Napue v. People of the State of Illinois,..!, 14, 18, 20
360 U.S. 264, 79 S.Ct. 1173,
3 L.Ed.2d 1217 (1959)
Minnesota Supreme Court Cases
In re Hawkins, 834 N.W.2d 663, 668
(Minn. 2013)..............................

18

VI

In re Heinemann, 606 N.W.2d 62, 64
(Minn.2000)...............................

17

In re Huff, 872 N.W.2d 750, 753-754
(Minn., 2015)............................

17

In re Morin, 469 N.W.2d 714, 717
(Minn. 1991)..........................

17

In re Wolff, 810 N.W.2d 312, 316
(Minn.2012)........................

17

Rules of the Supreme Court
Rule 13.3

1

Rule 13.5

1

Rule 14.1(g) (i)

19

Minnesota Supreme Court Rules
Rule 3.1, MRPC

4

Rule 3.3(a)(1), MRPC

4

Rule 12(d), RLPR

3, 14, 17, 18

Wisconsin Supreme Court Rules
SCR 20:3.1(a)

5

Vll

SCR 20:3.1(a)(3)

13

SCR 20:3.3(a)(1)

4, 13

United States Code
28 U.S.C. sec. 1257(a)

1

Racketeer Influenced and Corrupt
Organizations Act (RICO),
18 U.S.C. sec. 1961, et seq.

Passim

Fair Debt Collection Practices Act....
(FDCPA) 15 U.S.C. sec. 1692, et seq.

Passim

1
OPINIONS BELOW
Petitioner seeks review of the May 22, 2019
Opinion and Order of the Minnesota Supreme
Court (Appendix A) imposing reciprocal discipline
based on the March 30, 2018 Opinion and Order of
the Wisconsin Supreme Court1 (modified on June
12, 2018). Rehearing was denied on June 28, 2019
(Appendix B.)
JURISDICTION
This Court has jurisdiction to grant the
Petition for Writ of Certiorari pursuant to 28
U.S.C. sec. 1257(a) and Supreme Court Rule 13.3.
The Petition is timely filed within the time allowed
from the June 28, 2019 Order Denying Rehearing,
including all extensions granted by this Court
under Supreme Court Rule 13.5.
The issues of violation of Petitioner’s Due
Process Rights were consistently asserted and
preserved in the proceedings before the Minnesota
Supreme Court. See Appendix D.
Petitioner, Wendy Alison Nora, respectfully
petitions for a Writ of Certiorari to review the May
22, 2019 Opinion and Order of the Minnesota
Supreme Court indefinitely suspending her right to
practice law before the Minnesota Supreme Court

1 See Appendix C.

2

as reciprocal discipline based on the March 30,
2018 Opinion and Order of the Wisconsin Supreme
Court suspending her right to practice law before
the Wisconsin Supreme Court2. Petitioner moved
for rehearing before the Minnesota Supreme Court.
On June 28, 2019, Petitioner’s Motion for
Rehearing was denied.
CONSTITUTIONAL AMENDMENT AND
RULES OF COURT INVOLVED
Fourteenth Amendment to the Constitution of
the United States, Section 1
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty,

On June 12, 2018, Petitioner’s Motion for
Reconsideration of the Wisconsin Supreme Court’s
Opinion and Order, but the March 30, 2018
Opinion was modified to correct the Wisconsin Supreme
Court’s original finding that Petitioner had been
previously disciplined by the Minnesota Supreme Court
for “dishonesty”, when the Minnesota Supreme Court
adopted the Referee’s finding that Petitioner had “no
selfish or dishonest motive”.

3

or property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
Rule 12(d) of the Minnesota Rules of Lawyers
Professional Responsibility (RLPR)
Reciprocal Discipline. Upon learning from any
source that a lawyer licensed to practice in Minn­
esota has been publicly disciplined or is subject to
public disciplinary charges in another jurisdiction,
the Director may commence an investigation and,
without further proceedings, may file a petition for
disciplinary action in this Court. A lawyer subject
to such charges or discipline shall notify the
Director. If the lawyer has been publicly disciplined
in another jurisdiction, this Court may issue an
order directing that the lawyer and the Director
inform the Court within thirty (30) days whether
either or both believe the imposition of the identical
discipline by this Court would be unwarranted and
the reasons for that claim. Without further
proceedings this Court may thereafter impose the
identical discipline unless it appears that discipline
procedures in the other jurisdiction were unfair, or
the imposition of the same discipline would be
unjust or substantially different from discipline
warranted in Minnesota. If this Court determines
that imposition of the identical discipline is not
appropriate, it may order such other discipline or
such other proceedings as it deems appropriate.
Unless the Court determines otherwise, a final
adjudication in another jurisdiction that a lawyer

4

had committed certain misconduct shall establish
conclusively the misconduct for purposes of
disciplinary proceedings in Minnesota.
Minnesota Rules of Professional Conduct
(MRPC) Rule 3.3(a)(1)
Rule 3.3(a)(1) Candor Toward the Tribunal
(a) A lawyer shall not knowingly:
(1) make a false statement of fact or law to a
tribunal, or fail to correct a false statement of
material fact or law previously made to the
tribunal by the lawyer[.]
SCR 20:3.3(a)(1) of the Wisconsin Supreme
Court
SCR 20:3.3(a)(1) Candor toward the tribunal
(a) A lawyer shall not knowingly:
(1) make a false statement of fact or law to a
tribunal or fail to correct a false statement of
material fact or law previously made to the
tribunal by the lawyer[.]
Minnesota Rules of Professional Conduct
(MRPC) Rule 3.1
RULE 3.1: Meritorious Claims and Contentions
A lawyer shall not bring or defend a proceeding, or
assert or controvert an issue therein, unless there
is a basis in law and fact for doing so that is not

5

frivolous, which includes a good faith argument for
an extension, modification, or reversal of existing
law. A lawyer for a defendant in a criminal
proceeding, or the respondent in a proceeding that
could result in incarceration, may nevertheless so
defend the proceeding as to require that every
element of the case be established.
Wisconsin Supreme Court Rule SCR 20:3.1
SCR 20:3.1 Meritorious claims and contentions
(a) In representing a client, a lawyer shall not:
(1) knowingly advance a claim or defense that is
unwarranted under existing law, except that the
lawyer may advance such claim or defense if it can
be supported by good faith argument for an
extension, modification or reversal of existing law;
. . . (am) omitted because it was not in effect at the
time of the conduct complained of. . .
(2) knowingly advance a factual position unless
there is a basis for doing so that is not frivolous; or
(3) file a suit, assert a position, conduct a defense,
delay a trial or take other action on
behalf of the client when the lawyer knows or when
it is obvious that such an action would serve merely
to harass or maliciously injure another.

6
STATEMENT OF THE CASE
A. INTRODUCTION
This case presents important constitutional
questions regarding the Due Process rights of
lawyers in state disciplinary proceedings. This
Court held In the Matter of John Ruffalo, Jr.,
Petitioner, 390 U.S. 544, 551, 88 S.Ct. 1222, 20
L.Ed.2d 117 (1968)
These are adversary proceedings of a quasi­
criminal nature . . . absence of fair notice as
to the reach of the grievance procedure and
the precise nature of the charges deprived
petitioner of procedural due process.
This case involves the use of forged docu­
ments authenticated by perjured affidavits by the
prosecution and the concealment of exculpatory
evidence by Wisconsin Office of Lawyer Regulation
(OLR) through its retained counsel as the
prosecuting attorney after the prosecution knew
that the documents which had been produced were
fabricated.
Last term, this Court decided McDonough v.
Smith, No. No. 18-485 on June 20, 2019, writing:
Though McDonough’s complaint does not
ground his fabricated-evidence claim in a
particular constitutional provision, the

7
Second Circuit treated his claim as arising
under the Due Process Clause. 898 F. 3d, at
266. McDonough’s claim, this theory goes,
seeks to vindicate a ‘“right not to be deprived
of liberty as a result of the fabrication of
evidence by a government officer.’”3 Ibid.
(quoting Zahrey v. Coffey, 221 F. 3d 342, 349
(CA2 2000)); see also, e.g., Napue v. Illinois,
360 U. S. 264, 269 (1959).
Petitioner has consistently argued, ever
since the evidence of that the documents were
fabricated appeared, that to use fabricated
documents as evidence in state lawyer disciplinary
proceedings violates the Due Process Clause at
Section 1 of the Fourteenth Amendment to the
Constitution of the United States.
This Petition presents the issue of whether
the use of forged documents authenticated by
perjured affidavits and the concealment of
exculpatory evidence by Wisconsin Office of Lawyer
Regulation (OLR) through its retained counsel as
the prosecuting attorney.

3 In this case, the evidence was fabricated by the
prosecution’ witness, Wisconsin lawyer David M.
Potteiger, and was introduced by the prosecution which
knowingly relied thereon and concealed exculpatory
evidence in the discovery process.

8
The Petition in McDonough u. Smith alerted
this Court to the frequent use of fabricated
evidence in criminal prosecutions.
The use of fabricated documents has become
all too common in criminal prosecutions (see brief
of the Amicus Curiae in McDonough v. Smith,
supra4) just as it has been observed to be wide­
spread in civil foreclosure cases throughout the
nation. See United States of America, et al. v. Bank
of America Corporation, et al., United States
District Court for the District of Columbia, Case
No. 12-cv-361 (the “National Mortgage
Settlement”).
Fabricated evidence is becoming so common
that it is now being used in lawyer disciplinary
proceedings by the very authorities who have the
duty to assure that the parties they are responsible
for regulating. Most disturbingly, the Supreme

10 Brief of Amici Curiae the American Civil Liberties
Union, Bronx Defenders, Brooklyn Defender Services,
Center for Appellate Litigation, Connecticut Innocence
Project, The Innocence Project, The Legal Aid Society,
National Association of Criminal Defense Lawyers,
Neighborhood Defender Service of Harlem, New York
County Defender Services, New York State Association
of Criminal Defense Lawyers, Office of the Appellate
Defender, and Vermont Office of the Defender General
at 1, McDonough, 898 F.3d 259 (No. 17-0296-cv), 2018
WL 4191173, at *1. See October, 2018 Petition for
Certiorari in McDonough v. Smith, at page 32.

9
Courts of both Wisconsin and Minnesota have
turned a blind eye to the substantial proofs that
fabricated evidence was used in the Wisconsin
disciplinary proceedings in violation of Petitioner’s
Due Process Rights.
The Minnesota Supreme Court violated
Petitioner’s Due Process Rights by imposing
reciprocal discipline based the Wisconsin Supreme
Court’s Suspension Order which relied on
fabricated evidence.
B. FACTUAL BACKGROUND
Petitioner was admitted to practice law
before the Supreme Court of Wisconsin on June 9,
1975. She was admitted to practice law before the
Supreme Court of Minnesota on September 20,
19855. She has been admitted to practice in three
(3) federal district courts (the Western District of
Wisconsin, the Eastern District of Wisconsin, and
the District of Minnesota) and the Circuit Courts of

4 On January 19, 1990 Petitioner was indefinitely suspended
from the practice of law in Minnesota with the right to
reapply for admission within 30 days as the result of her
admitted conduct in defense of agricultural businesses during
the Farm Crisis in which she had been overzealous. In re the
Disciplinary Action against Nora, 450 N.W.2d 328, 329 (1990).

10
Appeal for the Seventh and Eighth Circuits. She is
a member of the bar of this Court. She has
appeared pro hac vice in other jurisdictions.
Nora practiced law without any disciplinary
complaint filed by any client or other member of
the public between 1991 and 2010 having been
found to warrant formal disciplinary investigation
(almost 20 years) before she became involved in the
defense of homeowners against foreclosures based
on evidence that false pleadings, forged documents
and falsely sworn affidavits were being submitted
in judicial foreclosure proceedings, including two
(2) cases involving her own home. She has now
been suspended, reciprocally to the Wisconsin
Suspension Order in every forum except this Court.
Petitioner defended her home in the second
state court foreclosure proceeding. Because she
was unable to obtain reasonable ADAA accom­
modations following the onset of the temporary
seizure disorder at the end of 20096, she sought
ADAA accommodations from the Dane County
Circuit Court (the state court). The United States

6 From at least January, 2010 through early 2011, the Dane
County Circuit Court did not have an ADA accommodations
specialist, reportedly due, in part, to funding issues.

11
Department of Justice has taken the position that,
under the ADAA effective January 1, 2009
accommodations are an administrative and not a
judicial matter. Judges are not immune from suit
when acting in their administrative capacity7
On November 15, 2010, Petitioner filed a
civil rights action based on the deprivation of
ADAA accommodations in the United States
District Court for the Western District of Wisconsin
(the District Court) in the case titled Nora v. Colds,
et al., Case No. 10-cv-709.
In October, 2010, after a judgment of fore­
closure was entered on March 3, 2010, Petitioner
discovered that the assignment of mortgage was
signed and notarized in a falsely claimed capacity.
On November 30, 2010, Petitioner filed an action in
the United States District Court for the Western
District of Wisconsin (the District Court) against
multiple parties under the Racketeer Influenced
and Corrupt Organization Act (RICO) for violations
of 18 U.S.C. sec. 1961, et seq. and for violations of
the Fair Debt Collection Practices Act (FDCPA) 15
U.S.C. sec. 1692, et seq. as Case No. 10-cv-748

1 Forrester v. White, 484 U.S. 219, 229-230, 108 S.Ct. 538, 98 L.Ed.2d
555 (1988)

12
styled Nora v. Residential Funding Company, LLC,
et al.
On May 14, 2012, while the Federal District
Court action was pending, five (5) of the RICO CoDefendants, including Residential Funding Com­
pany, LLC (RFC) and two (2) of the identified
mortgage servicers filed for Chapter 11 protection
which proceeded under the administratively con­
solidated lead case titled In re Residential Capital,
LLC (In re RESCAR) as Case No. 12-12020 in the
United States Bankruptcy Court for the Southern
District of New York (the Bankruptcy Court).
Petitioner informed the District Court of the
Co-Defendants’ Chapter 11 filing and Petitioner
proceeded to participate in the Bankruptcy Court
case as a creditor and interested party in the
Bankruptcy Court on May 18, 2012.
When the District Court dismissed Peti­
tioner’s RICO/FDCPA action for lack of subject
matter jurisdiction under the Rooker-Feldman
doctrine (despite the fact that Petitioner was con­
currently seeking relief by Motion to Vacate the
Judgment of Foreclosure under Wis. Stat. sec.
806.07(a), the Wisconsin equivalent of Fed. R. Civ.
P. 60(b)), Petitioner sought reconsideration of the

13
dismissal order and eventually filed the RICO/
FDCPA action in the Bankruptcy Court, where her
Proof of Claim (POC) had been pending as POC No.
2 since May 18, 2012 and joined additional parties
and causes of action. The RICO/FDCPA claim was
settled in the Bankruptcy Court.
Petitioner was found to have committed four
(4) counts of professional misconduct as the result
of filing an ADAA action in violation of SCR
20:3.1(a)(3), filing a true and accurate copy of an
agreement with the mortgage servicer and
reporting exactly what she was told to the Dane
County Circuit Court (found to be in violation of
SCR 3.3(a)(1)) and for filing the RICO and FDCPA
claims in the Federal District Court and in the
Bankruptcy Court (found to be in violation of SCR
20:3.1(a)(3). The Minnesota Code of Professional
Conduct has no equivalent to SCR 20:3.1(a)(3).
C. PROCEDURAL HISTORY
On March 30, 2018, the Wisconsin Supreme
Court entered an Order suspending Petitioner from
practice, in part based on forged documents and
perjured affidavits created and executed by one of
her litigation opponents in a foreclosure case
involving Petitioner’s own home. The forged
documents and perjured affidavits were relied upon

14
by the prosecution in the Wisconsin disciplinary
matter.
Despite Petitioner’s efforts to demonstrate
that the use of forged documents authenticated by
perjured affidavits violated her Due Process Rights,
the Minnesota Supreme Court found that the
Wisconsin disciplinary proceedings were not unfair
and imposed reciprocal discipline under MRLPR
12(d) on Petitioner on May 22, 2019.
D. LEGAL AUTHORITY
Lawyer disciplinary proceedings have been
recognized by this court as quasi-criminal in
nature. Ruffalo, supra. It is well-established that a
conviction procured upon false evidence is a due
process violation. The United States Supreme
Court held in Napue v. People of the State of
Illinois, 360 U.S. 264, 269-270, 79 S.Ct. 1173, 3
L.Ed.2d 1217 (1959)
First, it is established that a conviction
obtained through use of false evidence,
known to be such by representatives of the
State, must fall under the Fourteenth
Amendment, [citations omitted].... The
same result obtains when the State al
though not soliciting false evidence, allows it

15
to go uncorrected when it appears [citations
omittted].
The principle that a State may not knowingly
use false evidence, including false testimony,
to obtain a tainted conviction, implicit in any
concept of ordered liberty, does not cease to
apply merely because the false testimony
goes only to the credibility of the witness.
In Brady v. State of Maryland, 373 U.S. 83,
87, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963) this Court
held:
We now hold that the suppression by the
prosecution of evidence favorable to an
accused upon request violates due process
where the evidence is material either to guilt
or to punishment, irrespective of the good
faith or bad faith of the prosecution.
Exculpatory evidence of the fraud committed
by the Lawyer-Grievant consisting of a forged copy
of an email never sent, authenticated by a falsely
sworn affidavit was withheld when specifically
demanded by the Petitioner in discovery.
A lawyer should not be disciplined based on
evidence known by the state to be false and when

16
the state suppresses exculpatory evidence
consistent with Due Process. The use of false
evidence to obtain a conviction (which should also
apply in quasi-criminal lawyer disciplinary pro­
ceedings) violates the Due Process Clause of the
Fourteenth Amendment.
The United States Supreme Court held in
Napue v. People of the State of Illinois, 360 U.S.
264, 269-270, 79 S.Ct. 1173, 3 L.Ed.2d 1217 (1959)
First, it is established that a conviction
obtained through use of false evidence,
known to be such by representatives of the
State, must fall under the Fourteenth
Amendment, [citations omitted]. . . . The
same result obtains when the State although
not soliciting false evidence, allows it to go
uncorrected when it appears [citations
omitted].
The principle that a State may not knowingly
use false evidence, including false testimony,
to obtain a tainted conviction, implicit in any
concept of ordered liberty, does not cease to
apply merely because the false testimony
goes only to the credibility of the witness.

17
REASONS FOR GRANTING THE PETITION
A. The questions presented have not
previously been decided by this Court.
This Court has been careful to assure that
lawyer disciplinary proceeding do not violate the
Due Process Rights. The issue of use of fabricated
evidence in lawyer disciplinary proceedings has not
previously been heard and considered by this
Court.
The Minnesota Supreme Court wrote,
In re Huff, 872 N.W.2d 750, 753-754 (Minn., 2015)
The purpose of reciprocal discipline is “to
prevent a sanctioned attorney from avoiding the
consequences of misconduct by simply moving his
or her practice to another state.” In re Heinemann,
606 N.W.2d 62, 64 (Minn.2000). “Conservation of
judicial resources also militates in favor of defer­
ring to sanctions imposed elsewhere.” In re Morin,
469 N.W.2d 714, 717 (Minn.1991). Unless we deter­
mine otherwise, another jurisdiction’s determin­
ation that a lawyer has committed misconduct
conclusively establishes “the misconduct for pur­
poses of disciplinary proceedings in Minnesota.”
Rule 12(d), RLPR ; In re Wolff, 810 N.W.2d 312,
316 (Minn.2012). We may impose reciprocal disci-

18

pline “unless it appears that discipline procedures
in the other jurisdiction were unfair, or the imposi­
tion of the same discipline would be unjust or subs­
tantially different from discipline warranted in
Minnesota.” Rule 12(d), RLPR; accord In re
Hawkins, 834 N.W.2d 663, 668 (Minn. 2013).
B. The question clearly presented here
is a matter of substantial importance.
This Court has been reluctant to interfere
with attorney disciplinary proceedings and
decisions by state authorities as a matter of comity
and federalism, deferring to state court disciplinary
proceedings except where Due Process violations
occur as in Ruffalo.
In Napue v. Illinois, 360 U.S. 264, 269-270,
79 S.Ct. 1173, 3 L.Ed.2d 1217 (1959), this Court
held that it is a Due Process violation for the
prosecution to obtain a conviction on testimony it
knew to be perjured. Last term, this Court
addressed the use of fabricated evidence in a
criminal case in McDonough v. Smith, No. 18-485.
The issue for which Movant seeks review is
whether the use of forged documents authenticated
by perjured affidavits in a lawyer disciplinary
proceeding must be considered so that the growing

19
problem of the use of fabricated evidence will be
identified as a Due Process violation in civil cases,
including quasi-criminal lawyer disciplinary
proceedings.
C. The issues of violation of Petitioner’s
Due Process Rights were consistently
raised and preserved.
To demonstrate that the federal issues were
timely raised and consistently preserved required
by Rule 14.1(g)(i), Petitioner has produced a true
and correct copy of her December 7, 2018
Memorandum in Opposition to the Petition for
Reciprocal Discipline as Appendix D (App. 91) to
demonstrate that she timely raised the federal
issues below as required by Rule 14.1(g)(i).
D. Petitioner’s Due Process Rights were
violated by the imposition of reciprocal
discipline based in proceedings in
violation of her Due Process Rights.
Petitioner is being punished for misconduct
she did not commit on the basis of false evidence
which resulted in unfair hearing in violation of her
Due Process Rights.

20

CONCLUSION
Reciprocal discipline cannot constitutionally
be imposed based on false evidence, concealment of
exculpatory evidence and deprivation of a full and
fair opportunity to be heard.
Petitioner asks this Court to grant her
Petition for Writ of Certiorari to the Minnesota
Supreme Court in order to establish that lawyers
have the right to be free from the use of false
evidence, the concealment of exculpatory evidence
and a full and fair hearing in quasi-criminal lawyer
disciplinary proceedings by extending Napue v.
Illinois, supra, to lawyer disciplinary cases and
reversing the reciprocal discipline imposed by the
Supreme Court of Minnesota.
Dated at Madison, Wisconsin this 22nd day of
November, 2019.

AN IMAGE OF THE SIGNATURE BELOW
SHALL HAVE THE SAME FORCE AND EFFECT
AS THE ORIGINAL
I ifi

VulJ>
Wendy Alison Nora, in propria persona
ACCESS LEGAL SERVICES, LLC

